DOE F 1325.8
(08-93)
United States Government                                                              Department of Energy

memorandum
          DATE   March 16. 2009
   REPLY TO
    ATTN OF.     IG-40

    SUBJECT      Letter Report on "Y- 12 National Security Complex Accountable Classified Removable
                 Electronic Media Program," INS-L-09-03 (S091S008)

           TO    Manager, Y-12 Site Ortice

                 This is to advise you of the results of an Office of Inspector General inspection 01
                 accountable classified removable electronic media (ACREM) at the National Nuclear
                 Security Administration's Y-12 National Security Complex (Y-12).

                 BACKGROUND

                 Y-12 is responsible Cor ensuring the safety and reliability of the Nation's nuclear weapon
                 stockpile and handles and stores some of the Nation's most sensitive information. Y-12 is
                 managed and operated by Babcock and Wilcox Technical Services Y- 12, LLC, and the Y-12
                 Site Ocfice oversees this contract.

                 Y- 12 utilizes removable electronic media, such as hard drives, compact disks, data tapes,
                 etc., to store vast amounts of classified information. Approximately five years ago, after a
                 series of security incidents, the Departnient of Energy implemented policy tightening
                 controls over removable electronic media that was classified at the SecretIRestricted Data
                 (SIRD) level or higher and designated such media as ACREM. DOE Manual 470.4-4,
                 "Information Security," requires that all classified information systems media must be
                 marked with the classification level orthe inconnation system and that procedures be
                 established to ensure that all ACREM has been placed into accountability. The Manual also
                 requires that any disk removed Crom the manufacturer's case and not immediately destroyed
                 must be marked with the classification level and category, that classified waste and
                 receptacles must be protected for the level and category of classified matter involved, that
                 information must be protected at its highest potential classification level and category until
                 the actual level and categnry are cnnfimed, and that classified waste mus! be destrnyed as
                 soon as practical.

                 The objective of this inspection was to detei-n~inewhether Y-12's ACREM was managed,
                 protected, and controlled consistent with applicable requirements. During our inspection, we
                 inventoried 1,761 of the 9,396 pieces of ACREM in accountability at Y- 12. We also
                 reviewed the contents of a sample of non-ACREM safes (safes identified as not containing
                 ACREM and not ~inderACREM custodian control) to determine if any ACREM materials
                 were unidentified or uncontrolled. Further, we reviewed a sample of ACREM held by Y-I2
                 subcontractors at several facilities.
RESULTS OF INSPECTION

We found that an unmarked hard drive had not been properly marked as SIRD and placed
into accountability as ACREM, as required, and that 332 metallic flat discs and data tapes
located in an ACREM safe may not have bee11properly controlled as ACREM.

Regarding the unmarked hard drive, we were informed that it had been connected to an SIRD
computer network that became inoperative, but due to an oversight, when it was removed
from the network it was not marked SIRD or controlled as ACREM. The staff responsible
for removing the hard drive did not believe that it contained SIRD data and was unaware of
ant1 railed to follow the reqilirements of DOE Manual 470.4-4. Y-12 officials placed the
item into ACREM accountability during our inspection fieldwork.

Regarding the uninarked metallic flat discs and data tapes, while interviewing a Y-12
ACREM custodian, w e were told that he maintained approximately 50 or 60 hard drives in an
ACREM safe, awaiting desln~ction.He indicated that the items were oti~nknownorigin,
content, and security classification. The custodian infonned us that, prior to being inoved to
their present location, these items had been received and stored in hard drive cases in a Y-12
security area without classification markings; they had been awaiting destruction for as long
as five or six years; and the hard drive cases had been removed. We reviewed the safe
contents and determined that the hard drives had been dismantled, resulting in 332 metallic
flat discs and data tapes awaiting destruction (one hard drive can contain from 1 to 12
metallic flat discs that store data). We were told the iteins had not been destroyed because
other higher priority media had been destroyed first. The custodian said the items had been
stored with ACREM at their previous location and were presently protected as if they
contained classified inforn~ation;however, the items were not placed into accountability or
marked as containing or possibly containing classified information. Subsequent to our
review of the items, we were advised by Y-12 Site Office officials that Y-12 destroyed the
items in accordance with ACREM destruction requirements.

S i ~ ~ immediate
        ce        corrective actions were taken, no formal recom~nendationsare being made,
and a formal response to this report is not required. However, given the extended length of
time the discs and data tapes were awaiting destncction, we suggest the Manager of the Y-12
Site Office take action to ensure destruction ~f unneeded media is accomplished timely. This
inspection was conducted in accorda~lcewith the "Quality Standards for Ii~spections"issued
by the President's Council on Integrity and Efficiency. We appreciate the cooperation we
received from your staff during this inspection. If you have questions concen~ingthis matter,
please contact Ms. Marilyn Richardson or tne at (202) 586-4109.




                                           Elise M. Ennis
                                           Assistant Inspector General
                                              for Inspections and Special Inquiries
cc: Chief Health, Safety and Security Officer
    Ijirector, Policy and Internal Controls Management (NA-66)
    Director, Orlice of Internal Review (CF-1.2)
    Audit I,iaison, Y-12 Site Office
